TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Fiscal Year 2006 Statutory Audit of
                      Compliance With Notifying Taxpayers
                       of Their Rights When Requested to
                         Extend the Assessment Statute



                                      September 21, 2006

                              Reference Number: 2006-40-163




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 21, 2006


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Fiscal Year 2006 Statutory Audit of Compliance
                                With Notifying Taxpayers of Their Rights When Requested to Extend
                                the Assessment Statute (Audit # 200540040)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) was complying with Internal Revenue Code Section (§) 6501(c)(4)(B) (2000 Suppl. 2),
 which requires the IRS to provide notice to taxpayers of their rights to decline to extend the
 assessment statute of limitations or to request that any extension be limited to a specific period of
 time or to specific issues.
 The Treasury Inspector General for Tax Administration is required to provide information
 annually regarding the IRS’ compliance with Internal Revenue Code § 6501(c)(4)(B).1 The IRS
 is required to advise taxpayers of their rights when requesting an extension of the statute of
 limitations on assessment of additional tax and penalties. In passing this law, Congress
 expressed concern that taxpayers were not being advised adequately of their rights.

 Impact on the Taxpayer
 We identified instances in which case files did not contain the necessary documentation to show
 the taxpayers were advised of their rights regarding assessment statute extensions. Without
 adequately documenting this process, the IRS can not demonstrate compliance with the statutory
 requirements and taxpayers could have entered into statute extension agreements without
 adequate knowledge of their rights.



 1
     Internal Revenue Code § 7803(d)(1)(C) (2000 Suppl. 2).
                                   Fiscal Year 2006 Statutory Audit of
                           Compliance With Notifying Taxpayers of Their Rights
                           When Requested to Extend the Assessment Statute



Synopsis
                                                                                        Taxpayer rights were
There was not always documentation in the related case files that           potentially affected when
taxpayers were advised of their rights regarding assessment statute         case files did not contain
                                                                              documentation that
extensions. During our period of review, the IRS used both prior           taxpayers were notified of
versions of the consent forms and the newly distributed revised                    their rights.
consent forms that provide an explanation of the taxpayers’ rights to
limit or refuse to extend the assessment statute of limitations.2 In
our sample of 201 tax returns, 35 (17.41 percent) of the related case files reviewed did not
contain any documentation to support that the taxpayers had been advised of their rights
regarding assessment statute extensions. In addition, 13 (12.75 percent) of the case files in our
sample with authorizations for third-party representation did not document that the
representatives were separately notified of the written communications advising taxpayers of
their rights.3 Taxpayer rights were potentially affected in 360 tax returns for which related case
files were not documented to show that taxpayers’ rights were protected with regard to
assessment statute extensions. In addition, taxpayer rights were potentially affected in 134 tax
returns for which related case files were not documented to show that the taxpayers’
representatives were given copies of the written communications advising taxpayers of their
rights regarding assessment statute extensions.

Recommendation
We made no recommendations in this report because we have made prior recommendations that
continue to provide benefits.

Response
IRS management conveyed their appreciation of our acknowledgement that the revisions the IRS
has made to various consent forms in response to our previous recommendations continue to
provide benefits and that no further recommendations are necessary. However, the IRS
expressed disagreement pertaining to the legal interpretations of 26 Code of Federal Regulations
§ 601.5064 and, as a result, our outcome measures. The IRS believes providing notice to the
taxpayer’s authorized representative constitutes compliance with statutory requirements.
Management’s complete response to the draft report is included as Appendix VI.


2
  The IRS uses several different types of consents, depending on the type of tax involved. For example, Consent to
Extend the Time to Assess Tax (Form 872) is used for income taxes and Consent to Extend the Time to Assess
Employment Taxes (Form SS-10) is used for employment taxes.
3
  See Appendix V.
4
  26 Code of Federal Regulations § 601.506 (2002).
                                                                                                                     2
                               Fiscal Year 2006 Statutory Audit of
                       Compliance With Notifying Taxpayers of Their Rights
                       When Requested to Extend the Assessment Statute



Office of Audit Comment
Contrary to the IRS’ position, we believe the statute and the regulations are clear on the IRS’
responsibility to send notification to the taxpayer. The IRS’ own procedures require that “. . . the
notification must be made to the taxpayer and the taxpayer’s representative . . ..” While
taxpayers may permit authorized representatives to receive IRS notifications in addition to the
notice required to be provided to the taxpayers, taxpayers may not designate that their
representatives receive notification instead of the taxpayers. As a result, we believe our outcome
measures are valid.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                   3
                                       Fiscal Year 2006 Statutory Audit of
                               Compliance With Notifying Taxpayers of Their Rights
                               When Requested to Extend the Assessment Statute




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Case Files Did Not Always Contain Documentation That
          Taxpayers Were Advised of Their Rights Regarding
          Assessment Statute Extensions .....................................................................Page 4
          Case Files Did Not Always Contain Documentation That
          the Internal Revenue Service Provided Taxpayers’
          Representatives With the Required Copies of Notices .................................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measures...............................................................Page 13
          Appendix V – Case Review Results by Division .........................................Page 15
          Appendix VI – Management’s Response to the Draft Report ......................Page 17
                 Fiscal Year 2006 Statutory Audit of
         Compliance With Notifying Taxpayers of Their Rights
         When Requested to Extend the Assessment Statute




                   Abbreviations

I.R.C.          Internal Revenue Code
IRM             Internal Revenue Manual
IRS             Internal Revenue Service
                                   Fiscal Year 2006 Statutory Audit of
                           Compliance With Notifying Taxpayers of Their Rights
                           When Requested to Extend the Assessment Statute




                                             Background

The Internal Revenue Service (IRS) is required by Internal Revenue Code (I.R.C.) Section (§)
6501(c)(4)(B) (2000 Suppl. 2) to advise taxpayers of their rights when requesting an extension of
the statute of limitations on assessment of additional tax and penalties. In the event of multiple
extension requests, this I.R.C. section also requires the IRS to notify the taxpayer of his or her
rights on each occasion when the taxpayer is requested to consent to an extension. In passing
this law, Congress expressed concern that taxpayers were not being adequately advised of their
rights to refuse to extend the statute of limitations or to request that a statute extension be limited
to a specific period of time or to specific issues.
Federal Government regulations require that any notice or other written communication (or
copy) required or permitted to be given to a taxpayer in any matter before the IRS must also be
given to the taxpayer and to the taxpayer’s representative.1 However, the taxpayer can use the
Power of Attorney and Declaration of Representative (Form 2848) to restrict the notices or
information the representative is authorized to receive. In addition, IRS Restructuring and
Reform Act of 19982 § 3201 requires the IRS to send any notice relating to a jointly filed tax
return separately to each individual filing the joint return.
If the IRS examines a tax return and determines there is an additional                   A consent extends
tax liability, it generally must assess the tax within 3 years from the                    the assessment
date the return was due or from the date on which the return was                        statute of limitations
actually filed, whichever is later. This 3-year assessment statute of                    to either a specific
limitations normally cannot be extended without the taxpayer’s                              date or for an
                                                                                          indefinite period.
written agreement.3
To extend the assessment statute, the IRS asks the taxpayer to sign a
statute extension agreement form (i.e., a consent form).4 A consent extends the assessment
statute of limitations to either a specific date or for an unlimited, indefinite period. The statute is
usually extended for a period that both the IRS and the taxpayer agree is reasonable to complete
the examination. The consent can also be negotiated to apply only to certain examination issues.
There are two basic types of consents: the fixed date consent and the open-ended consent. The


1
  26 Code of Federal Regulations § 601.506 (2002).
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  There are some exceptions to the 3-year statute of limitations. For example, I.R.C. § 6501(c)(1) (2000 Suppl. 2)
extends the assessment statute indefinitely when false or fraudulent tax returns are filed.
4
  IRS employees that most often request assessment statute extensions are examiners in the Examination functions
of the operating divisions and appeals officers in the Office of Appeals.
                                                                                                            Page 1
                                  Fiscal Year 2006 Statutory Audit of
                          Compliance With Notifying Taxpayers of Their Rights
                          When Requested to Extend the Assessment Statute



fixed date consent sets a specific expiration date on the statute, while the open-ended consent
extends the statute for an infinite period of time.
Although the IRS has revised its internal procedures over the last few years to help enhance
controls, our reviews have continued to identify instances in which there is no documentation
that taxpayers were advised of their rights. In response to our Fiscal Year 2004 report,5 the IRS
revised the various consent forms to include a statement informing taxpayers of their rights
regarding assessment statute extensions as provided for in I.R.C. § 6501(c)(4)(B) and to provide
information on Extending the Tax Assessment Period (Publication 1035). In addition, the
consent forms include a statement for the taxpayers’ representatives to sign, confirming that they
have been notified of the taxpayers’ rights regarding assessment statute extensions and that the
taxpayers also have been advised of their rights.




A taxpayer might agree to extend the assessment statute of limitations to pursue additional
examination issues that are in the taxpayer’s favor in offsetting a proposed tax or that might
allow for a tax refund.
•   If the remaining time before the statute expires is too short, the IRS may have to prematurely
    stop the examination process and issue a notice of deficiency that limits the time for the
    normal appeals process before the taxpayer must file a petition to the United States Tax
    Court.
There are also certain circumstances in which a taxpayer may decide to limit or refuse to extend
the assessment statute of limitations:




5
 Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When Requested to
Extend the Assessment Statute (Reference Number 2004-40-108, dated June 2004).
                                                                                                       Page 2
                                     Fiscal Year 2006 Statutory Audit of
                             Compliance With Notifying Taxpayers of Their Rights
                             When Requested to Extend the Assessment Statute



•      The taxpayer may not want to provide the IRS more time to consider additional examination
       issues.
•      The taxpayer may not want to allow the IRS the opportunity to develop further any
       examination issues already under consideration after the normal statute period has expired.
The Treasury Inspector General for Tax Administration is required to provide information
annually regarding the IRS’ compliance with I.R.C. § 6501(c)(4)(B).6 This report presents the
results of our seventh annual review of the IRS’ compliance with the statute extension provisions
of the law.
This review was performed at the Large and Mid-Size Business Division Headquarters, Office of
Appeals Headquarters, Small Business/Self-Employed Division Headquarters, and Tax Exempt
and Government Entities Division Headquarters in Washington, D.C., during the period
October 2005 through June 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




6
    I.R.C. § 7803(d)(1)(C) (2000 Suppl. 2).
                                                                                              Page 3
                                   Fiscal Year 2006 Statutory Audit of
                           Compliance With Notifying Taxpayers of Their Rights
                           When Requested to Extend the Assessment Statute




                                       Results of Review

Case Files Did Not Always Contain Documentation That Taxpayers
Were Advised of Their Rights Regarding Assessment Statute
Extensions
In 35 (17.41 percent) of the 2017 tax returns sampled, case files did not contain sufficient
documentation to indicate whether taxpayers had been advised of their rights before consenting
to extend the time to assess tax. There were 20 tax returns filed by single individuals,
businesses, or exempt organizations and 15 jointly filed individual tax returns.8 We estimate
from our population of 2,065 tax return files that 360 tax return files may not have contained
adequate documentation to show taxpayers were advised of their rights when assessment statutes
were extended during the first 6 months of Calendar Year 2005.9 We considered that IRS
employees advised taxpayers of their rights if any of the following documentation was found in
the related case files:
•   A revised Consent to Extend the Time to Assess Tax (Form 872) and Consent to Extend the
    Time to Assess Employment Taxes (Form SS-10),10 signed by the taxpayer, that briefly
    outlines taxpayer rights regarding assessment statute extensions.
•   A copy of Request to Extend Assessment Statute (Letter 907), Letter Transmitting Consent
    Extending Period of Limitation (Letter 967), or comparable cover letter updated to include an
    explanation of taxpayer rights addressed to the taxpayer.
•   A record that Publication 1035 was provided to the taxpayer, as documented in the
    examination activity record or as shown as an enclosure on a cover letter. This Publication
    provides a detailed explanation of taxpayer rights.
•   A notation in the examination activity record indicating the taxpayer was given the required
    notification of rights.


7
  This number is a unique count of tax returns. It is made up of single individuals, businesses, exempt organizations,
and taxpayers who filed a joint tax return.
8
  See Appendix V.
9
  Based on the estimated population of 2,065 tax return files, we are 95 percent confident that between 250 and
470 tax return files may not have contained adequate documentation that taxpayers were properly notified of their
assessment statute of limitation rights. See Appendix IV for additional details.
10
   The IRS uses several different types of consents, depending on the type of tax involved. For example, Form 872
is used for income taxes and Form SS-10 is used for employment taxes. Form 872 is the most commonly used
consent form.
                                                                                                              Page 4
                                   Fiscal Year 2006 Statutory Audit of
                           Compliance With Notifying Taxpayers of Their Rights
                           When Requested to Extend the Assessment Statute



                                        The 35 exceptions occurred because employees did not
                                        follow IRS internal guidelines. The Internal Revenue
                                        Manual (IRM)11 and other internal procedures require IRS
                                        employees to provide the taxpayer with a Letter 907 or
                                        967 (with a copy of Publication 1035 as an enclosure) and
                                        to document on an activity record whether the taxpayer
                                        was notified of his or her rights every time the IRS
                                        requested an assessment statute extension. The guidelines
                                        covering requests for taxpayers to extend the assessment
                                        statute require that notices relating to jointly filed tax
                                        returns be sent to each individual filing the joint return,
                                        wherever practicable. Specifically, the IRM requires that
   Publication 1035 (Rev.05-2003)
                                        each individual filing a joint tax return be provided with a
   Catalog Number 46890Q                Letter 907 or 967. Without the required documentation,
                                        we could not determine if the IRS protected the rights of
                                        these taxpayers. Taxpayer rights can be affected if the IRS
does not follow the Federal Government regulations to notify both the taxpayers and their
representatives of the taxpayers’ rights to refuse to extend the period of limitations or to request
that any extension be limited to specific issues or to a specific period of time.
This year’s review continued to confirm IRS employees do not always document that the
taxpayers or their representatives were properly advised of the taxpayers’ rights regarding
assessment statute extensions. Integrating the revised consent forms into the assessment statute
extension process should help the IRS eliminate questions concerning whether the taxpayers are
being properly notified of their rights regarding assessment statute extensions. As a result, we do
not believe any further recommendations are needed at this time.

The revised Forms 872 should be an effective means for the IRS to document that
taxpayers were notified of their rights
During our audit period in January 2005, IRS employees began using the revised Form 872. In
our sample of 201 cases, employees used the revised consent form in 83 cases.12 In 8 of the
83 cases, the revised consent form was the only documentation on file that taxpayers had been
notified of their rights. Without the new consent form that advised the taxpayers of their rights,
these 8 cases would have been considered exceptions because other required documentation was
not included in the files.




11
   The IRM contains policy, direction, and delegations of authority necessary to carry out IRS responsibilities to
administer tax law and other legal provisions.
12
   Form 872 (Rev. 12-2004); Form SS-10 (Rev. 12-2004).
                                                                                                              Page 5
                               Fiscal Year 2006 Statutory Audit of
                       Compliance With Notifying Taxpayers of Their Rights
                       When Requested to Extend the Assessment Statute




The revised Form 872 includes a prominent statement informing
taxpayers of their rights regarding assessment statute extensions, as      The revised consent
provided for in I.R.C. § 6501(c)(4)(B), and information on how to             form includes a
obtain Publication 1035. By signing the revised version of the             prominent statement
consent form, the taxpayer attests that “I am aware that I have the       informing taxpayers of
                                                                             their assessment
right to refuse to sign this consent or to limit the extension to
                                                                               statute rights.
mutually agreed-upon issues and/or period of time as set forth in
I.R.C. § 6501(c)(4)(B).”
Once the IRS fully integrates use of the revised consent form with the statement advising
taxpayers of their rights, the percentage of cases without required documentation should
decrease. The only time the revised consent form would not be an effective vehicle to notify
taxpayers of their rights is when the consent form is signed by the taxpayers’ representatives
instead of the taxpayers, and there is no additional documentation in the case file that the
taxpayers were notified of their rights.
The statutory requirement of I.R.C. § 6501(c)(4)(B) is for the IRS to notify taxpayers of their
rights regarding assessment statute extensions. Federal Government regulations state that any
notice given to a taxpayer must be given to the taxpayer and the taxpayer’s representative. The
IRM also requires that “the notification must be made to the taxpayer and the taxpayer’s
representative unless the taxpayer has placed restrictions on providing copies to the
representative.” The IRS meets this obligation by demonstrating that the notice was mailed or
presented to the taxpayer in person. This is usually accomplished by maintaining a copy of the
Letter 907 or 967 in the case file and documenting this notification on an examination activity
record.
In the IRS Restructuring and Reform Act of 1998 Committee Report, Congress further
emphasized the need for taxpayers to be fully informed of their statute extension rights: “The
Committee is concerned that in some cases taxpayers have not been fully aware of their rights to
refuse to extend the statute of limitations and have felt they had no choice to extend the statute of
limitations upon request of the IRS.”
Our sample cases were processed during the time the IRS was distributing (in December 2004
and March 2005) the revised version of the Form 872. If the revised version of the Form 872
had been available and used at the time employees requested the assessment statute extensions
for the 201 returns sampled, there would have been only 16 case files without sufficient
documentation instead of the 35 case files we reported. The revised Form 872 would have
provided documentation that an additional 19 taxpayers had been notified of their rights. In the
16 case files, the Forms 872 were signed by the taxpayers’ representatives rather than the
taxpayers; therefore, using the revised consent form would not have been an effective vehicle to
notify the taxpayers of their rights.


                                                                                              Page 6
                                 Fiscal Year 2006 Statutory Audit of
                         Compliance With Notifying Taxpayers of Their Rights
                         When Requested to Extend the Assessment Statute



Employees usually used the revised consent form once it became available
Our sample indicated the IRS took effective actions to integrate the new consent forms into the
assessment statute extension process. Employees used the revised consent forms for soliciting
assessment extensions in 83 of the cases we sampled. Based on the dates the consents were
requested, employees should have accessed and used the revised consent forms in 100 of the
201 tax returns we sampled. In the remaining 17 of 100 case files, employees used previous
versions of the consent forms rather than the newly distributed revised consent forms.
The revised consent forms were initially distributed by memoranda on December 29, 2004, from
the Director, Examination, Small Business/Self-Employed Division, to all affected business
units/functions with instructions for:
•   The immediate use of the revised consent forms for soliciting assessment statute agreements.
•   The web site where the electronic versions of the revised consent forms could be obtained.
•   The destruction of all hardcopy stock of prior versions of the consent forms.
•   Management to remind employees to update the electronic version of the consent forms on
    their computers to ensure older versions were not being used.
                           Employees did not use the revised consent forms for a variety of
                           reasons. Managers we interviewed stated that some employees used
 Employees had not         previous versions of the consent forms that had been saved to their
    always updated         computer hard drives. We believe this may be resolved in time as
electronic versions of
the consent forms on
                           employees update the electronic versions of the consent forms on their
   their computers.        computers. Also, there was a 2-month delay in updating the software
                           program for 1 IRS function, preventing employees ready access to the
                           revised forms until mid-February 2005.

Case Files Did Not Always Contain Documentation That the Internal
Revenue Service Provided Taxpayers’ Representatives With the
Required Copies of Notices
Any notice or other written communication (or copy) required or permitted to be given to a
taxpayer in any matter before the IRS must also be given to the taxpayer’s representative. In our
sample of 201 tax returns, 102 of the related case files contained an authorization for a third
party to represent the taxpayers in front of the IRS. In 89 of the related case files, employees
documented that representatives were given a copy of the written communications advising
taxpayers of their rights regarding assessment statute extensions.
However, there was no documentation that employees had provided the representatives with a
copy of the written communications provided to taxpayers in the remaining 13 (12.75 percent)

                                                                                           Page 7
                                   Fiscal Year 2006 Statutory Audit of
                           Compliance With Notifying Taxpayers of Their Rights
                           When Requested to Extend the Assessment Statute



case files. We estimate from a population of 1,048 tax return files that 134 case files were not
documented to show the taxpayers’ representatives were given copies of the written
communications advising taxpayers of their rights regarding assessment statute extensions.13
Taxpayer entitlements could be affected if the IRS does not follow the Federal Government
regulations to notify both the taxpayers and their representatives of the taxpayers’ rights to refuse
to extend the period of limitations or to request that any extension be limited to specific issues or
to a specific period of time.
This occurred because employees were not following IRS internal guidelines. Internal IRS
procedures and current Federal Government regulations require that any notice or other written
communication (or copy) required or permitted to be given to a taxpayer in any matter before the
IRS must also be given, unless restricted by the taxpayer, to the taxpayer’s representative.

Recommendation
We made no recommendations in this report because we have made prior recommendations that
continue to provide benefits.
        Management’s Response: IRS management conveyed their appreciation of our
        acknowledgement that the revisions the IRS has made to various consent forms in
        response to our previous recommendations continue to provide benefits and that no
        further recommendations are necessary. However, the IRS expressed disagreement
        pertaining to the legal interpretations of 26 Code of Federal Regulations § 601.50614 and,
        as a result, our outcome measures. The IRS believes providing notice to the taxpayer’s
        authorized representative constitutes compliance with statutory requirements.
        Office of Audit Comment: Contrary to the IRS’ position, we believe the statute and
        the regulations are clear on the IRS’ responsibility to send notification to the taxpayer.
        The IRS’ own procedures require that “. . . the notification must be made to the taxpayer
        and the taxpayer’s representative . . ..” While taxpayers may permit authorized
        representatives to receive IRS notifications in addition to the notice required to be
        provided to the taxpayers, taxpayers may not designate that their representatives receive
        notification instead of the taxpayers. As a result, we believe our outcome measures are
        valid.




13
   Based on the estimated population of 1,048 tax return files, we are 95 percent confident that between 66 and
202 case files were not documented to show that taxpayers’ representatives were given copies of notices advising
taxpayers of their rights regarding assessment statute extensions. See Appendix IV for additional details.
14
   26 Code of Federal Regulations § 601.506 (2002).
                                                                                                           Page 8
                                   Fiscal Year 2006 Statutory Audit of
                           Compliance With Notifying Taxpayers of Their Rights
                           When Requested to Extend the Assessment Statute



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS was complying with
I.R.C. § 6501(c)(4)(B) (2000 Suppl. 2), which requires the IRS to provide notice to taxpayers of
their rights to decline to extend the assessment statute of limitations or to request that any
extension be limited to a specific period of time or to specific issues. To accomplish this
objective, we:
I.       Determined whether a sample of tax returns contained adequate documentation to show
         taxpayers and their representatives were being advised of their rights pertaining to
         assessment statute extension requests.
         A. Reviewed the IRM,1 IRS memoranda and regulations, and the Office of Appeals
            (Appeals) guidelines to determine the policies and procedures for processing requests
            to extend the assessment statute of limitations.
         B. Identified a population of 6,720 Business Master File2 and Individual Master File3 tax
            returns with taxpayer consents to extend assessment statutes processed from
            January 1 through June 30, 2005. We validated the Business Master File and
            Individual Master File data by examining a random sample of 50 of the 6,720 records.
            The validation test results demonstrated the data were reliable and could be used to
            meet the objectives of this audit. We developed a statistical sampling plan using a
            95 percent confidence level, an expected error rate of 16 percent, and a precision of
            ±5 percent, which resulted in a sample size of 201 tax returns (closed cases). A
            statistical sample was taken because we wanted to estimate the number of tax returns
            in the population for which taxpayer rights were potentially affected.
         C. Randomly selected for review 700 tax returns from the category of cases likely to
            have statute extensions by taxpayer consent from the Examination function and
            Appeals processes. We met our statistical sample size of 201 cases after reviewing
            654 tax returns and related case files and eliminating 453 tax returns (1) that did not
            meet our criteria or (2) for which we did not receive all the requested tax returns and
            related case files. The sample of 201 tax returns was comprised of 116 single
            individual, business, and exempt organization tax returns and 85 jointly filed

1
  The IRM contains policy, direction, and delegations of authority necessary to carry out IRS responsibilities to
administer tax law and other legal provisions.
2
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
3
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                              Page 9
                                  Fiscal Year 2006 Statutory Audit of
                          Compliance With Notifying Taxpayers of Their Rights
                          When Requested to Extend the Assessment Statute



            individual tax returns. In addition, 102 of the 201 tax returns had declarations of
            representative made by the taxpayers.4
        D. Reviewed the 201 selected tax returns and related case files for the necessary
           documentation to verify whether taxpayers and their representatives were advised of
           their rights regarding assessment statute extensions. We also verified whether
           taxpayers were separately advised of their rights related to the assessment statute
           extension when they filed a joint return.
        E. Discussed exceptions identified with the IRS business unit or function that requested
           the extension for concurrence or an explanation of why the IRS believed proper
           procedures were followed.
II.     Determined the status of the IRS corrective action related to a recommendation in a prior
        Treasury Inspector General for Tax Administration audit report5 dealing with the revision
        of the consent forms. We determined how the IRS ensured the revised consent forms
        were made available to the tax examiners, how effectively the IRS implemented use of
        the revised consent forms, and whether the appropriate consent form was used for cases
        in our sample. For the exceptions in which the revised consent form should have been
        used, we obtained an explanation for why the wrong consent form was used.




4
 See Appendix V for details.
5
 Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When Requested to
Extend the Assessment Statute (Reference Number 2004-40-108, dated June 2004).
                                                                                                      Page 10
                             Fiscal Year 2006 Statutory Audit of
                     Compliance With Notifying Taxpayers of Their Rights
                     When Requested to Extend the Assessment Statute



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
James O’Hara, Audit Manager
Tanya Boone, Acting Audit Manager
William Simmons, Acting Audit Manager
David Hartman, Lead Auditor
Kristi Larson, Senior Auditor
David Lowe, Auditor
Lynn Ross, Auditor
Sylvia Sloan-Copeland, Auditor




                                                                                   Page 11
                             Fiscal Year 2006 Statutory Audit of
                     Compliance With Notifying Taxpayers of Their Rights
                     When Requested to Extend the Assessment Statute



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Chief, Appeals AP
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Communications and Liaison, Large and Mid-Size Business Division SE:LM:CL
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Field Specialists, Large and Mid-Size Business Division SE:LM:FS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM:CL
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL
       Chief, Appeals AP
       Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM




                                                                                    Page 12
                                   Fiscal Year 2006 Statutory Audit of
                           Compliance With Notifying Taxpayers of Their Rights
                           When Requested to Extend the Assessment Statute



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that the review results will
have on tax administration. While we made no recommendations in this report, we have made
prior recommendations that continue to provide benefits. These benefits will be incorporated
into our Semiannual Report to Congress.
Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; in 3601 tax returns (208 single individual,
    business, or exempt organization and 152 jointly filed tax returns) for which related case files
    did not contain adequate documentation to show the taxpayers were advised of their rights
    when assessment statutes were extended during the first 6 months of Calendar Year 2005
    (see page 4).

Methodology Used to Measure the Reported Benefit:

To determine the number of tax returns for which there was not adequate documentation to
support that the taxpayers were advised of their rights when assessment statutes were extended,
we electronically identified 6,720 tax returns from the universe of Business Master File2 and
Individual Master File3 tax returns (posted during January through June 2005) on which the
assessment statute was extended. Based on this population, we reviewed a statistically valid
sample of 201 tax returns and identified 35 (17.41 percent) for which the required documentation
was not found. Because we could not electronically identify just those tax returns for which the
assessment statute was executed by consent, we requested 700 tax returns for which the
assessment statute was extended and reviewed a total of 654 tax returns to identify the 201 tax
returns for which the assessment statute was executed by consent needed for our sample. We
then had to estimate the size of the population for which the assessment statute was executed by
consent. This was accomplished by dividing the 201 tax returns in our sample by total tax
returns reviewed (201/654 = 30.73 percent) and then multiplying this percentage by the
population to estimate the number of tax returns for which the assessment statute was executed
by consent (6,720 * 30.73 percent = 2,065 tax returns). Using the estimated population, we
projected the reported error rate (2,065 tax returns * 17.41 percent = 360 [± 110] tax returns).

1
  Our sampling plan was based on a 95 percent confidence level, 16 percent expected error rate, and ±5 percent
desired precision.
2
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
3
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                           Page 13
                                  Fiscal Year 2006 Statutory Audit of
                          Compliance With Notifying Taxpayers of Their Rights
                          When Requested to Extend the Assessment Statute



The projections were calculated using valid statistical formulas to determine the variable range
of total error returns.

Type and Value of Outcome Measure:

•   Taxpayer Rights and Entitlements – Potential; in 1344 tax returns in which related case files
    were not documented to show the taxpayers’ representatives were given copies of the written
    communications advising taxpayers of their rights regarding assessment statute extensions
    (see page 7).

Methodology Used to Measure the Reported Benefit:

To determine the number of tax returns for which there was not adequate documentation to
support that the taxpayers’ representatives were advised of the taxpayers’ rights, we used the
same sample of 201 tax returns and identified 102 case files that contained an authorization for a
third party to represent the taxpayers in front of the IRS. In 13 of the 102 case files
(12.75 percent), there was no documentation that employees provided the representatives with a
copy of the written communications provided to the taxpayers. As we did above, we had to
estimate the size of the population of taxpayers that had authorized third-party representatives.
This was accomplished by dividing the number of tax returns in our sample with declarations of
representation by the total tax returns reviewed for which the assessment statute was executed by
consent (102/654 = 15.60 percent) and then multiplying this percentage by the population to
estimate the number of tax returns for which the assessment statute was executed by consent and
that had a declaration of representation (6,720 * 15.60 percent = 1,048 tax returns). Using the
estimated population, we projected the reported error rate (1,048 tax returns * 12.75 percent =
134 [± 68] tax returns). The projection was calculated using valid statistical formulas to
determine the variable range of total error returns.




4
 Our sampling plan was based on a 95 percent confidence level, 16 percent expected error rate, and ±5 percent
desired precision.
                                                                                                         Page 14
               Fiscal Year 2006 Statutory Audit of
       Compliance With Notifying Taxpayers of Their Rights
       When Requested to Extend the Assessment Statute



                                                   Appendix VI

Management’s Response to the Draft Report




                                                             Page 17
